C@OCKLE

al Brief E-Mail Address:
He 8 5 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 Nos. 19-267 & 19-348

OUR LADY OF GUADALUPE SCHOOL,
Petitioner,

v.
AGNES MORRISSEY-BERRU,
Respondent.

ST. JAMES SCHOOL,
Petitioner,
Vv.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF KRISTEN BIEL,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 6th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE FOUNDATION FOR MORAL
LAW IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by
Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JOHN A. EIDSMOE
Counsel of Record
FOUNDATION FOR MORAL LAW
One Dexter Avenue
Montgomery, AL 36104
(334) 262-1245
eidsmoeja@juno.com

Counsel for Amicus Curiae

Subscribed and sworn to before me this 6th day of February, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary j ‘
State of Nebraska . Lee Qudrow-
My Commission Expires Nov 24, 2020 " ‘

Notary Public Affiant 39432

 

 
 

 

Attorneys for Petitioner (both)

Eric Christopher Rassbach The Becket Fund for Religious Liberty 202-955-0095
Counsel of Record 1200 New Hampshire Avenue, NW
Suite 700
Washington, DC 20036
erassbach@becketlaw.org

Party name: Our Lady of Guadalupe School
Party name: St. James School

 

Attorneys for Respondent (both)

Jennifer Anne Lipski JML Law, A Professional Law Corporation 818-610-8800
Counsel of Record 5855 Topanga Canyon Boulevard, Suite 300
Woodland Hills, CA 91367

jennifer@jmllaw.com

Party name: Agnes Morrissey-Berru
Party name: Darryl Biel

 

 
